CTSC No. PSC-190384 -
CERTIFICATE OF COMPLIANCE
Harold H. Burbank, II
Petitioner

¥

Office of Chief Disciplinary Counsel
Respondent

As required by SUPREME COURT OF THE UNITED STATES OFFICE
OF THE CLERK WASHINGTON, D. C. 20543 SCOTT HARRIS’ April 17,
2020 memorandum ‘GUIDANCE CONCERNING CLERK’S OFFICE
OPERATIONS’ and Supreme Court Rule 33.2(b), and permitted by two direct
phone contacts with Mr. Harris’ staffer Susan Frimpong, 202.479.3039,
pursuant to Mr. Harris’ letter dated August 18, 2020 confirming that Rule
33.2(b) applies to my petition allowing up to forty pages without regard to
word count; I hereby re-submit a petition for certiorari of forty or less pages
pursuant to Rule 33.2(b); and certify that the petition contains forty or less
pages, excluding the parts of the petition that are exempted by Supreme
Court Rule 33.1(d).

1 declare under penalty of perjury that the foregoing is true and correct.
Executed on October 16, 2020

Harold H. Burbank, II, Pro Se

  
